No. 20-972

IN THE

SUPREME COURT OF THE UNITED STATES

IBEABUCHI, IKEMEFULA CHARLES
(Last, First, Middle)

Petitioner

v.
National Records Center, Missouri
U.S. Dep't of Homeland Security
U.S. Dep't of State

Respondents

PROOF OF SERVICE
I, or the Pelitio/ier, J8§ftBUCHI, IKEMEFULA CHARLES, does swear or declare that
on, this
't
. 2021. as required bv Supreme Court Rule 29. the
&
Petitioner has’sefrved t!he enclosed, Petition for Rehearing, on each Party to the
above Proceeding and on every other Person required to be served, by depositing
an Envelope containing the above Document in the United States Mail, properly
addressed to each of them and with First-Class Postage, prepaid, or by delivery to
a Third-Party Commercial Carrier for delivery within 3 Calendar Days.
The Names and Addresses of those served are as follows:
lill Eggleston. Director of Operation, National Records Center, 1 Archives Drive, St.
Louis. Missouri 63138: G 6641 Thompson. Deportation Officer, Phoenix, AZ Docket
Control Office ERO. Phoenix Field Office. 2035 N Central Ave.. Phoenix. AZ 85004:
Secretary (Fmr.) lohn Kerry. U.S Department of State. 401 W. Washington St. $45.
Phoenix, Arizona 85003

9.

The, Petitioner declares under the Penalty of Perjury that, the Foregoing is true
and correct. See, 28 U.S.C. ss. 1746
&

Executed on, 7

Jkutj OpAj?vi/(

, 2021.

(Signature)

10.

